No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re: RAYMOND LAMONTE ROGERS

PETITIONER

VS.
HARTZ, BALDOCK, and GORSUCH, Judges

- RESPONDENTS)

PROOF OF SERVICE
I, RAYMOND LAMONTE ROGERS, do swear or declare that on this
date, February 4, 2021, as required by Supreme Court Rule 29 I
have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF MANDAMUS and/or PROHIBITION
on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
(1). HARTZ, BALDOCK, and GORSUCH, Circuit Judges, Tenth Circuit
Court of Appeals, located at, 1823 Stout Street, Denver CO. 80257.
I declare under penalty of perjury that the foregoing is true and
correct. Executed on February 4, 2021.
Respectfully Signed,
RAYMOND LAMONTE ROGERS
Pro se.

